Case 3:19-cv-02656-G-BK Document 21 Filed 07/07/20

Page 1 of 2 PagelD 118

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

ABEL BELMONTE.,
Plaintiff,
VS.
CITY OF DALLAS, TEXAS,

)
)
)
)
)
)

CIVIL ACTION NO.
3:19-CV-2656-G-BIC

)
)

Defendant.

ORDER ACCEPTING FINDINGS, CONCLUSIONS. AND
RECOMMENDATION OF THE UNITED STATES MAGISTRATE IUDGE
United States Magistrate Judge Renee Harris Toliver made findings,
conclusions, and a recommendation in this case. Objections were filed, and the
Court has made a de novo review of those portions of the proposed findings,
conclusions, and recommendation to which objection was made. The objections are
overruled, and the Court accepts the Findings, Conclusions, and Recommendation of
the United States Magistrate Judge. Defendant’s motion to dismiss, docket entry 7,
is GRANTED.
Plaintiff’s section 1983 equal protection, Title VII pay disparity, breach of
contract, FSLMRA, and Payday Act claims are DISMISSED WITH PREJUDICE.
Plaintiffs federal and state race and national origin employment discrimination
claims are DISMISSED WITHOUT PREJUDICE.

Case 3:19-cv-02656-G-BK Document 21 Filed 07/07/20

Page 2 of 2 PagelD 119

Within 14 days of this Order, Plaintiff may file an amended petition as to
his state and federal employment discrimination claims only, if desired. However, if
Plaintiff fails to do so or the amended complaint does not cure the deficiencies
outlined in the magistrate judge’s report, Plaintiff’s state and federal employment
discrimination claims will be DISMISSED WITH PREJUDICE.
SO ORDERED.
July 7, 2020.

Senior United States District Judge

Case: 21-10163
4L-'

Document: 00515817276

Page: 1

Date Filed: 04/12/2021

A

tHrnteb States: Court of ^ppeate
for tfje Jftftf) Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 21-10163

April 12, 2021
Lyle W. Cayce
Clerk

Abel Belmonte

Plaintiff—Appellant,
versus
City

of

Dallas, Texas,
Defendant—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-2656

Before Higginbotham, Smith, and Engelhardt, Circuit Judges.
Per Curiam:
This court must examine the basis of its jurisdiction, on its own
motion if necessary. Hill v. City of Seven Points, 230 F.3d 167,169 (5th Cir.
2000). In this civil rights action, the plaintiff filed a notice of appeal from the
magistrate judge’s findings, conclusions and recommendations entered June
03, 2020 and February 9, 2021.
“Federal appellate courts have jurisdiction over appeals only from (1)
a final decision under 28 U.S.C. § 1291; (2) a decision that is deemed final
due to jurisprudential exception or that has been properly certified as final

Case: 21-10163

Document: 00515817276

Page: 2

Date Filed: 04/12/2021

No. 21-10163

pursuant to Fed. R. Civ. P. 54(b); and (3) interlocutory orders that fall
into specific classes, 28 U.S.C. § 1292(a), or that have been properly certified
for appeal by the district court, 28 U.S.C. § 1292(b).” Askanasev. Livinga>ell}
Inc., 981 F.2d 807, 809-10 (5th Cir. 1993). The report and recommendation
of a magistrate judge is not a final order and it does not fall into any of the
other categories that would make it appealable. See United States v. Cooper,
135 F.3d 960, 961 (5th Cir. 1998). Moreover, although the district court
subsequently adopted the report and recommendation docketed June 3,
2020, the present notice of appeal is not effective for purposes of appealing
that judgment. Id. at 962 (“[T]he recommendation of a magistrate judge is
not a final decision and does not in any way dispose of a party’s claims.”).
Accordingly, the appeal is DISMISSED for want of jurisdiction.

2

Case 3:19-cv-02656-G-BK Document 36 Filed 05/10/21

Page 1 of 1 PagelD 216

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

ABEL BELMONTE,
Plaintiff,
VS.
CITY OF DALLAS, TEXAS,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
3T9-CV-2656-G (BIC)

ORDER ACCEPTING FINDINGS, CONCLUSIONS, AND
RECOMMENDATION OF THE UNITED STATES MAGISTRATE JUDGE
United States Magistrate Judge Renee Harris Toliver made findings, conclusions
and a recommendation on Defendant’s Motion to Dismiss Plaintiff*s Amended Petition and
Brief in Support. No objections were filed. The Court finds that the Findings and
recommendations of the Magistrate Judge are correct.
IT IS, THEREFORE, ORDERED that the Findings, Conclusions, and
Recommendation of the United States Magistrate Judge are accepted.

SO ORDERED.
May 10, 2021.

Senior United States District Judge

Case 3:19-cv-02656-G-BK Document 30 Filed 02/09/21

Page 1 of 7 PagelD 179

In The United Stated District Court
For The Northern District Of Texas
Dallas Division
Abel Belmonte,
Plaintiff,
v.

City of Dallas, Texas,
Defendant.

§
§
§
§
§

Case No. 3:19-CV-2656-G-BK

§
§

Findings, Conclusions, and Recommendation
of the United States Magistrate Judge
Pursuant to 28 U.S.C. § 636(b) and Special Order 3, this case has been referred to the
undersigned United States magistrate judge for pretrial management. The Court now considers
Defendant’s Motion to Dismiss Plaintiff’s Amended Petition and Brief in Support, Doc. 27.
Upon review, Defendant’s motion should be GRANTED.
1. BACKGROUND
Plaintiff filed this pro se lawsuit against his former employer, Defendant City of Dallas,
for (l) race and national origin employment discrimination under Title VII and the Texas Labor
Code, (2) violation of the 14th Amendment Equal Protection Clause, (3) violation of the Lilly
Ledbetter Act, (3) breach of contract, and (4) violation of the Federal Service LaborManagement Relations Act (“FSLMRA”) and Chapter 61 of the Texas Labor Code (the “Payday
Act”). Doc. 3 at 5-7. The Court subsequently granted Defendant’s motion to dismiss, Doc. 7,
dismissing Plaintiffs § 1983, Title VII, breach of contract, FSLMRA, and Payday Act claims
with prejudice, Doc. 18; Doc. 21. The Court dismissed Plaintiffs federal and state race and
national origin employment discrimination claims without prejudice, however, granting leave to

>■

irv

y

t

1

*

i

i

i

- Case 3:19-cv-02656-G-BK Document 30 Filed 02/09/21

Page 2 of 7 PagelD180

amend. Doc. 18; Doc. 21. Plaintiff then filed his amended complaint1, Doc. 22, and included a
new claim for a DTPA violation. This motion followed.
Plaintiff, a Hispanic male and Mexican national, alleges that while working at
Defendant’s jail, he was required to perform additional tasks because he spoke Spanish but was
not compensated for the extra work. Doc. 22 at 3-4. Plaintiff had to translate for Spanish­
speaking prisoners and work nights and extra shifts because Defendant required every shift to
have at least one Spanish-speaker, and he was often the only Spanish-speaker available. Doc. 22
at 4. Though Plaintiff sought additional pay for his linguistic skills and extra work, he never
received any. Doc. 22 at 9.
II. APPLICABLE LAW
A plaintiff fails to state a claim for relief under Rule 12(b)(6) when the complaint does
not contain “enough facts to state a claim to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). In making this determination, the court accepts “all wellpleaded facts as true, viewing them in the light most favorable to the plaintiff.” In re Katrina
Canal Breaches Litig, 495 F.3d 191, 205 (5th Cir. 2007) (internal quotation marks and citations
omitted). However, the court cannot “accept as true conclusory allegations or unwarranted
deductions of fact.” Collins v. Morgan Stanley Dean Witter, 224 F.3d 496, 498 (5th Cir. 2000)
(internal citation and quotation marks omitted). In sum, a plaintiffs factual allegations “must be
enough to raise a right to relief above the speculative level on the assumption that all the
allegations in the complaint are true (even if doubtful in fact).” Twombly, 550 U.S. at 555
(internal citations and footnote omitted).

l

In his amended complaint, Plaintiff reasserts his claims under the Lily Ledbetter Act, Doc. 22
at 9, and the Equal Protection Clause, Doc. 22 at 13, that the Court previously dismissed with
prejudice. See Doc. 18 at 5-7; Doc. 21. These reasserted claims contain the same allegations as
the original claims. As the Court did not grant leave to amend those claims, they are not
addressed again here.

2

• Case 3:19-cv-02656-G-BK Document 30 Filed 02/09/21

Page 3 of 7 PagelD 181

III. PARTIES’ ARGUMENTS AND ANALYSIS
A. Race and National Origin Discrimination
Plaintiff claims Defendant discriminated against him based on his race and national
origin because Defendant did not pay him extra for using his Spanish language skills on the job.
Doc. 22 at 10-11. Defendant argues that Plaintiff has failed to allege the essential factual basis
required to state race and national origin discrimination claims. Doc. 27 at 13-14.
The Court analyzes Plaintiffs Title VII and TCHRA race and national origin claims
together because the two contain identical allegations and analogous statutes and caselaw apply.
See Reedv. Neopost USA, Inc., 701 F.3d 434, 439 (5th Cir. 2012) (quoting Mission Consol.
Indep. Sch. Distr. v. Garcia, 372 S.W.3d 629, 633-34 (Tex. 2012)). Such claims can be
dismissed together through one 12(b)(6) analysis. See Lewis v. City of Dallas, No. 3:16-CV0259-N, 2016 WL 11474104, at *5 (N.D. Tex. Dec. 20, 2016) (Godbey, J.).
To properly allege a claim for both race and national origin discrimination, a plaintiff
must plausibly plead two ultimate elements: (1) that he suffered an adverse employment action;
and (2) the adverse action was because of Plaintiff s protected status. See Cicalese v. Univ. of
Tex. Medical Branch, 924 F.3d 762, 767 (5th Cir. 2019) (detailing elements of Title VII race and
national origin discrimination claims). Even liberally construed, Plaintiffs pro se complaint
does not meet this pleading standard. See Johnson v. Pfeiffer, 821 F.2d 1120, 1122 (5th Cir.
1987) (pro se complaints must be held to a less rigorous standard than pleadings prepared by
lawyers).
Language is not a racial or national origin trait and, thus, cannot be the basis of a race or
national origin discrimination claim. Garcia v. Gloor, 618 F.2d 264, 268-71 (5th Cir. 1980).
While language may be used as a covert basis for national origin discrimination, that is the
exception rather than the rule. Id. at 268. And in those exceptional instances, such
discrimination is focused on forbidding the use of a language as an expression of culture, not
encouraging, or even requiring, the use of a specific language as part of someone’s job. Id. at
270-71.
3

* Case 3:19-cv-02656-G-BK Document 30 Filed 02/09/21

Page 4 of 7 PagelD 182

Although Plaintiff alleges that he is a Mexican citizen and is of Mexican descent, Doc. 22
at 3, he has not alleged any facts that suggest a disparity of treatment, an adverse action, or
denial of income on account of being Mexican. To the contrary, Plaintiffs allegations suggest
that any differential treatment was solely the result of his ability to speak Spanish. See, e.g. Doc.
22 at 4 (“If a co-worker did not speak Spanish, plaintiff [sic] would have to stop with the
booking process of his prisoner and go translate for a co-worker. ..”). It is of no moment that
Plaintiffs Mexican heritage may be why he speaks Spanish fluently, since obviously all fluent
Spanish speakers are not Mexican.
As Plaintiff has not sufficiently alleged the essential elements of his race and national
origin employment discrimination claims, they should thus be dismissed.
B. Title VII Claim: Disparate Impact
Plaintiff contends he was the victim of disparate impact discrimination because he was
treated unfavorably for speaking Spanish, was given a Spanish test, and used his Spanishlanguage skills on the job but was not compensated for it. Doc. 22 at 6-8. Defendant argues that
Plaintiff has not stated the necessary elements of a disparate impact claim. Doc. 27 at 14-15.
Disparate impact claims involve employment practices that are facially neutral but fall
more harshly on one group and cannot be justified as a business necessity. Garcia v. Woman’s
Hosp. of Tex., 97 F.3d BIO, 813 (5th Cir. 1996). A plaintiff claiming disparate impact must plead
sufficient facts to show (1) the particular employment practice that caused the disparity and (2)
an identifiable factor responsible for the alleged disparate impact. Id.
Plaintiffs allegations again fall short. Even if he has identified a facially neutral policy,
to-wit, the requirement that at least one Spanish speaker work each shift, he does not identify a
specific factor that causes a disparate impact under the policy on all employees who are Mexican
nationals. Plaintiffs chief complaint is that he is the only one—not every employee of Mexican
descent or nationality—who was made to work longer hours without additional compensation
due to a dearth of available Spanish speakers. See Garcia, 97 F.3d at 813 (“It would, of course,
be insufficient for a claim under Title VII if Garcia were the only pregnant woman adversely

4

*>

* Case 3:19-cv-02656-G-BK Document 30 Filed 02/09/21

Page 5 of 7 PagelD 183

affected; she must show that pregnant women as a group would be subject to this medical
restriction.").
Because Plaintiff fails to state a factually plausible case of disparate impact
discrimination, his claim should be dismissed.
C. Title VII Claim: Hostile Work Environment
Plaintiff also claims Defendant created a hostile work environment because of Plaintiff s
Mexican race and national origin. Doc. 22 at 4-5. Defendant argues Plaintiff has not stated the
necessary elements for a hostile work environment claim because he has not alleged any
instances of discriminatory harassment. Doc. 27 at 16.
A plaintiff claiming a hostile work environment under Title VII must plead that: (1) the
plaintiff belongs to a protected group, (2) the plaintiff suffered unwelcome harassment, (3) the
harassment was based on a protected characteristic, (4) the harassment affected a term, condition,
or privilege of employment, and (5) the employer knew or should have known about the
harassment and failed to take prompt remedial action. Ramsey v. Henderson, 286 F.3d 264, 268
(5th Cir. 2002).
Plaintiffs amended complaint fails to plausibly allege a claim under this standard.
Notwithstanding that the alleged conduct does not rise to the level of harassment, it clearly was
based not on Plaintiffs race or national origin but, as discussed supra, on Plaintiffs ability to
speak Spanish. See Doc. 22 at 3 (“[Pjlaintiff would have to stay over every time if a Spanish
speaker was needed on the next shift and plaintiff was the only Spanish speaker on his shift.”).
Plaintiffs amended complaint does not allege any instances of derogatory comments or actions
based on his race or national origin.
Plaintiffs hostile work environment claim therefore fails and should be dismissed.
D. DTPA Claim
In his amended complaint, Plaintiff added a new claim, alleging that Defendant violated
the Texas Deceptive Trade Practices Act by using Plaintiffs language skills without his approval
and without pay. Doc. 22 at 9. Defendant argues that because this claim was filed without the
5

‘ Case 3:19-cv-02656-G-BK Document 30 Filed 02/09/21

Page 6 of 7 PagelD 184

Court’s leave, it should be stricken. Doc. 27 at 10-11. Defendant argues in the alternative that it
cannot be sued under the DTPA because it has governmental immunity. Doc. 27 at 11-12.
Defendant is correct on both accounts: (1) Plaintiff did not request, and the Court did not grant,
leave to file new claims in his amended complaint, see Doc. 21, and (2) even if this claim was
permissibly filed, the Court would still lack the necessary subject matter jurisdiction to hear it.
Governmental immunity bars a suit against a Texas government entity unless the Texas
Legislature has expressly consented to the suit. See Levy v. City of Rio Grande City, No. 3:04CV-0381-B, 2006 WL 3831299, at *2 (N.D. Tex. Dec. 28, 2006) (Boyle, J.). Absent legislative
consent, the trial court lacks the subject matter jurisdiction necessary to hear the suit. Id. The
DTPA does not contain the clear and unambiguous language necessary to waive governmental
immunity; the Texas Legislature has not consented to suit under the act. See Dallas County v.
Rischon Dev. Corp., 242 S.W.3d 90, 95 (Tex. App.—Dallas 2007) (concluding that the
legislature did not express a clear and unambiguous waiver of governmental immunity under the
DTPA).
Here, Defendant is a government entity—a city. The Texas Legislature has not
consented to suits against a government entity under the DTPA, so the Court does not have the
necessary subject matter jurisdiction to hear the claim. Plaintiffs DTPA claim should be
dismissed.
F. Leave to Amend
“As a general rule, a court should not dismiss a pro se complaint without affording the
plaintiff the opportunity to amend. Bazrowx v. Scott, 136 F.3d 1053, 1054 (5th Cir. 1998).
However, the court is not required to grant leave to amend “if the plaintiff has already pleaded
his ‘best case.’” Brewster v. Dretke, 587 F.3d 764, 767-768 (5th Cir. 2009). Here, Plaintiff has
previously been granted leave to amend to cure the identified defects in his pleading.
Nevertheless, Plaintiffs claims for state and federal employment discrimination are still deficient
and his DTPA violation claim is cannot be cured. Thus, the Court assumes Plaintiff has already

6

'• ' ' * Case 3:19-cv-02656-G-BK Document 30 Filed 02/09/21

Page 7 of 7 PagelD 185

pled his best case. Granting additional leave to amend under these circumstances would be futile
and cause needless delay.
IV. CONCLUSION
For the foregoing reasons, Defendant’s Motion to Dismiss Plaintiff’s Amended Petition
and Brief in Support, Doc. 27, should be GRANTED. All of Plaintiff s claims should be
DISMISSED WITH PREJUDICE.
SO RECOMMENDED on February 9, 2021.

/£
kEtlfefc'HARRIS TOLIVER
UNKTEEVSTATES MAGISTRATE JUDGE

X

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of this report and recommendation will be served on all parties in the manner provided by
law. Any party who objects to any part of this report and recommendation must file specific
written objections within 14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); FED.
R. Civ. P. 72(b). An objection must identify the finding or recommendation to which objection is
made, the basis for the objection, and the place in the magistrate judge’s report and
recommendation the disputed determination is found. An objection that merely incorporates by
reference or refers to the briefing before the magistrate judge is not specific. Failure to file specific
written objections will bar the aggrieved party from appealing the factual findings and legal
conclusions of the magistrate judge that are accepted or adopted by the district court, except upon
grounds of plain error. See Douglass v. United Services Automobile Ass'n, 79 F.3d 1415, 1417
(5th Cir. 1996), modified by statute on other grounds, 28 U.S.C. § 636(b)(1) (extending the time
to file objections to 14 days).

7

Case 3:19-cv-02656-G-BK Document 37 Filed 05/10/21

Page 1 of 1 PagelD 217

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

ABEL BELMONTE,
Plaintiff,
VS.
CITY OF DALLAS, TEXAS,
Defendant.

)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
3T9-CV-2656-G (BK)

JUDGMENT
The Court has entered its Order Accepting the Findings, Conclusions, and
Recommendation of the United States Magistrate Judge.
IT IS THEREFORE ORDERED, ADJUDGED, AND DECREED that
Defendant’s Motion to Dismiss Plaintiffs Amended Petition and Brief in Support (docket
entry 27) is GRANTED, and Plaintiffs claims are DISMISSED WITH PREJUDICE.

SO ORDERED.
May 10, 2021.

Senior United States District Judge

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 1 of 10 PagelD 98

In The United Stated District Court
For The Northern District Of Texas
Dallas Division

Abel Belmonte,
Plaintiff,

§
§
§

v.

§

City of Dallas, Texas,
Defendant.

§
§
§

Case No. 3:19-CV-2656-G-BK

Findings, Conclusions, and Recommendation
of the United States Magistrate Judge
Pursuant to 28 U.S.C. § 636(b) and Special Order 3, this case has been referred to the
undersigned United States magistrate judge for pretrial management. The Court now considers
Defendant’s Motion to Dismiss Plaintiff's Original Petition and Brief in Support, Doc. 7. As
detailed here, Defendant’s motion should be GRANTED.
I. BACKGROUND
On November 7, 2019, Plaintiff filed this pro se lawsuit against his former employer,
Defendant City of Dallas, for race and national origin employment discrimination under Title VII
and the Texas Labor Code, violation of the 14th Amendment Equal Protection Clause, violation
of the Lilly Ledbetter Act, and breach of contract. Doc. 3 at 5-7. Plaintiffs Original Petition
also makes fleeting references to section 7116 of the Federal Service Labor-Management
Relations Act (“FSLMRA”) and Chapter 61 of the Texas Labor Code (the “Payday Act”). Doc.
3 at 5-6.
Plaintiff, a Hispanic male, alleges that while working as a detention officer in the Dallas
City Marshal’s Office, he was required to perform additional tasks because he spoke Spanish.
Doc. 3 at 2. Plaintiff had to translate incident reports for Spanish-speaking prisoners and work

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 2 of 10 PagelD99

nights and extra shifts because a Spanish speaker was required for every shift. Doc. 3 at 3-4.
After Plaintiff sought additional pay for his linguistic skills, he was given a Spanish test via
telephone, ostensibly to determine how much more he should be paid, but Plaintiff never
received any additional pay. Doc. 3 at 4.
' On November 15, 2017, Plaintiff resigned. Doc.3at4. Plaintiff alleges that he filed a
charge of discrimination with the Equal Employment Opportunity Commission (“EEOC”) on
January 3, 2018 (charge number 451-2019-3146, hereinafter referred to as “the 3146 charge”)
and a complaint with the Texas Workforce Commission (“TWC”) in August 2018. Doc. 3 at 45.

II. APPLICABLE LAW
A plaintiff fails to state a claim for relief under Rule 12(b)(6) when the complaint does
not contain “enough facts to state a claim to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). In making this determination, the court accepts “all wellpleaded facts as true, viewing them in the light most favorable to the plaintiff.” In re Katrina
Canal Breaches Litig495 F.3d 191, 205 (5th Cir. 2007) (internal quotation marks and citations
omitted). However, the court cannot “accept as true conclusory allegations or unwarranted
deductions of fact.” Collins v. Morgan Stanley Dean Witter, 224 F.3d 496, 498 (5th Cir. 2000)
(internal citation and quotation marks omitted). In sum, a plaintiffs factual allegations “must be
enough to raise a right to relief above the speculative level on the assumption that all the
allegations in the complaint are true (even if doubtful in fact).” Twombly, 550 U.S. at 555
(internal citations and footnote omitted). “Documents that a defendant attaches to a motion to
dismiss are considered part of the pleadings if they are referred to in the plaintiffs complaint and
are central to [his] claim.” Katrina Canal, 495 F.3d at 205 (internal citation omitted).

2

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 3 of 10 PagelDlOO

III. PARTIES’ ARGUMENTS AND ANALYSIS
A. Plaintiff's Race and National Origin Discrimination Claims
Defendant argues that Plaintiffs race and national origin employment discrimination
claims should be dismissed for failure to timely exhaust administrative remedies. Doc. 7 at 11,
13. Defendant offers as evidence a copy of the 3146 charge. Doc. 8-1 at 1. In response,
Plaintiff avers that his claims are not time barred, as equitable tolling applies. Doc. 10 at 2-3.
“Employment discrimination plaintiffs must exhaust administrative remedies before
pursuing claims in federal court. Exhaustion occurs when the plaintiff files a timely charge with
the EEOC and receives a statutory notice of right to sue.” Taylor v. Books A Million, Inc., 296
F.3d 376, 378-79 (5th Cir. 2002). In states such as Texas, which provide a state administrative
mechanism to address claims of employment discrimination, a Title VII plaintiff must file a
charge of discrimination with the EEOC within 300 days after the discriminatory conduct
alleged. 42 U.S.C. § 2000e-5(e)(l); Griffin v. City of Dallas, 26 F.3d 610, 612 (5th Cir. 1994).
Also, a complaint of discrimination under Texas state law “must be filed not later than the 180th
day after the date the alleged unlawful employment practice occurred.” Tex. Lab. Code. §
21.202(a). Discrimination claims must include facts showing that there was timely exhaustion of
administrative remedies to survive a motion to dismiss under Rule 12(b)(6). See Stroy v. Gibson
on behalf of Dep't of Veterans Affairs, 896 F.3d 693, 698 & n.2 (5th Cir. 2018) (affirming district
court’s dismissal without prejudice of plaintiffs retaliation claim under Rule 12(b) when
plaintiff offered no justification for his failure to administratively exhaust his claim).
Defendant argues that Plaintiff filed the 3146 charge on September 27, 2019—more than
300 days after his resignation on November 15, 2017. Doc. 7 at 12. In response, Plaintiff avers
that he timely filed charge of discrimination number 450-2018-01881 (the “1881 charge”) with

3

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 4 of 10 PagelD 101

the EEOC, which was subsequently transferred to the TWC and then back to the EEOC where it
was given the new charge number 450-2019-0314.' Doc. 10 at 2-3. Plaintiff s argument fails.
To survive a Rule 12(b) challenge, the complaint must allege “enough facts to state a
claim to relief that is plausible on its face.” Twombly, 550 U.S. at 570. Here, however, the
Complaint is silent as to the purported 1881 charge and administrative delays caused by transfer
of that charge between the EEOC and the TWC. Indeed, the only EEOC discrimination charge
Plaintiff references in his Complaint is the 3146 charge, which he alleged was filed January 3,
2018. Doc. 3 at 4. In addition, the 3146 charge clearly shows a “RECEIVED” date of
September 27, 2019. Doc. 8-1 at l. Thus, based on the latest possible date of discrimination,
November 15, 2017 (the day Plaintiff resigned), the 3146 charge was filed well after the 300-day
deadline under federal law (September 11, 2018) and the 180-day deadline under state law (May
14, 2018). See Tctpley v. Simplifile, LC, No. 3:19-CV-00227-£, 2020 WL 208817, at *2 (N.D.
Tex. Jan. 14, 2020) (Brown, J.) (dismissing plaintiff s Chapter 21 claims under Rule 12(b)(6) for
failure to exhaust administrative remedies when the date stamp on the charge of discrimination
established that the charge was filed the same day as the complaint and therefore not timely,
even though the complaint alleged that the charge was timely filed).
Additionally, as Defendant correctly argues, even if Plaintiff can establish that he
exhausted the administrative remedies, his Complaint is wholly devoid of any allegations that he
was discriminated against in his employment on account of his race or national origin. He has
not suggested, much less alleged, that he was denied extra pay because he is Hispanic. See
discussion infra Part III. B.

l

It is unclear whether Plaintiff has misidentified the 3146 charge or is referring to yet another
EEOC charge. See Doc. 8-1 at 1; Doc. 3 at 4.

4

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 5 of 10 PagelD 102

Accordingly, Plaintiffs Complaint fails to state plausible facts which, if proven true,
establish that he exhausted the administrative remedies as required. Thus, Plaintiffs race and
national origin employment discrimination claims should be dismissed.
B. Plaintiffs Equal Protection Claim
Section 1983 “provides a federal cause of action for the deprivation, under color of law,
of a citizen’s ‘rights, privileges, or immunities secured by the Constitution and laws’ of the
United States.” Livadas v. Bradshaw, 512 U.S. 107, 132 (1994). To state an equal protection
4.

claim, a section 1983 plaintiff must allege that either (1) “a state actor intentionally discriminated
against the plaintiff because of membership in a protected class[,]” Williams v. Bramer, 180 F.3d
699, 705 (5th Cir. 1999) (internal quotation marks and citation omitted), or (2) the plaintiff has
been “intentionally treated differently from others similarly situated and that there is no rational
basis for the difference in treatment J” Vill. ofWillowbrookv. Olech, 528 U.S. 562, 564 (2000)
(per curiam) (characterizing the later as a “class of one,” equal protection claim). Plaintiffs
Complaint fails to allege either.
Although Plaintiff alleges that he is Hispanic, he has not alleged any facts that suggest a
disparity of treatment on account of his race or national origin, to-wit, that he was treated less
favorably than similarly situated employees—non-Hispanic detention officers called upon to
perform extra translation duties. Doc. 3 at 5-6. Nor does Plaintiff allege facts that even suggest
he was denied extra compensation and made to work extra hours and night shifts on account of
his race or national origin. Indeed, Plaintiffs allegations only suggest that any disparate
treatment or maltreatment was the result of his ability to speak Spanish and not the fact that he is
Hispanic. Cf. Chhirn v. Spring Branch Indep. Sch. Dist., 396 F. App’x 73, 74 (5th Cir. 2010)
(affirming district court’s Rule 12(b)(6) dismissal because “[n]on-bilingual individuals are not a

5

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20 Page 6 of 10 PagelD 103

protected class under Title VII” and “a preference, or even requirement, that employees have
bilingual ability does not give rise to a discrimination claims based on national origin or race.”).
Plaintiff also fails to allege that Defendant “deliberately sought to deprive him of the equal
protection of the laws for reasons of a personal nature unrelated to [Defendant’s] duties.”
Williams v. Curtis, No. 3:16-CV-151-D-BH, 2017 WL 979053, at *3 (N.D. Tex. Jan. 18, 2017)
(Ramirez, J.), adopted by 2017 WL 976948 (N.D. Tex. Mar. 13, 2017) (Fitzwater, J.); see Olech,
528 U.S. at 564.
Notwithstanding the foregoing, fatal to Plaintiffs claim is that he has not pled a basis for
municipal liability, as Defendant correctly notes. “[Municipal liability under section 1983
requires proof of three elements: a policymaker; an official policy; and a violation of
constitutional rights whose “moving force” is the policy or custom. Piotrowski v. City of
Houston, 237 F.3d 567, 578 (5th Cir. 2001) (citing Monell v. Dep’t. of Social Services, 436 U.S.
658, 694 (1978)). Plaintiff has not and cannot establish either element here. Plaintiff argues in
his response that he “did display that Defendant has a custom and/or practice. The defendant had
clearly [sic] constructive [] knowledge of its custom and/or practice.” Doc. 10 at 4. However,
such conclusory allegations will not suffice. Consequently, he cannot state a claim against the
City of Dallas under section 1983 for alleged violation of his Constitutional right to equal
protection.
Accordingly, Plaintiffs 14th Amendment equal protection claim should be dismissed for
failure to state a claim.
C. Plaintiffs Lilly Ledbetter Act Claim
The Lilly Ledbetter Fair Pay Act of 2009 does not create a separate cause of action.
Obondi v. UTSw. Med. Or., No. 3:15-CV-2022-B, 2017 WL 2729965, at *2 n.9 (N.D. Tex. June

6

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 7 of 10 PagelD 104

23, 2017) (Boyle, J.). “Rather, it provides that the statute of limitations on Title VII claims based
on unequal compensation begins to run anew following each receipt of unequal pay.” Id.
(citation and internal quotation marks omitted); Prairie View A & M Univ. v. Chatha, 381
S.W.3d 500, 503 (Tex. 2012) (“when a claimant files a discriminatory pay claim under federal
law, the 180-day limitations period begins each time a claimant receives a paycheck containing a
discriminatory amount.”). Thus, the Court construes Plaintiffs Lilly Ledbetter claim as a Title
VII claim for pay disparity. See Obondi, 2017 WL 2729965, at *2 n.9. As such, it should be
dismissed for failure to exhaust administrative remedies. See supra Part III, subpart A.
D. Plaintiffs Breach of Contract Claim
Plaintiff does not allege the existence of a formal employment contract with Defendant.
Instead, he avers that “[t]he [p]olicies and procedures of the City formed part of [PJlaintiff s
employment contract” and that Defendant agreed “to pay [P] laintiff for his Spanish skills after he
was tested,” but never did. Doc. 3 at 7. Defendant argues that Plaintiffs breach of contract
claim fails because, inter alia, municipalities are immune from contract suits. Doc. 7 at 23 (citing
Tooke v. City of Mexia, 197 S.W.3d 325, 344-45 (Tex. 2006) (concluding municipalities are
immune from suit for contract liability unless there is a clear and unambiguous waiver of
immunity)).
Governmental immunity is the form of sovereign immunity that protects cities, as
political subdivisions of the state, from lawsuits and liability. Bell v. City of Grand Prairiz, 221
S.W.3d 317, 321 (Tex. App.—Dallas 2007). Governmental immunity may be waived by clear,
unambiguous legislative enactment or by governmental entities themselves through certain
actions such as bringing claims for affirmative relief in litigation. Reata Const. Corp. v. City of
Dallas, 197 S.W.3d 371,375 (Tex. 2006).

7

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 8 of 10 PagelD 105

Plaintiff has alleged no plausible facts that would support a finding that the City of Dallas
has waived its immunity as to his contract claims. Accordingly, Plaintiffs breach of contract
claim should be dismissed.
E. Plaintiffs FSLMRA and Payday Act Claims
The FSLMRA is inapplicable in this case because the FSLMRA governs labor relations
between federal employees and the federal government. 5 U.S.C. § 7101(b); Lipscomb v. Fed
Labor Relations Auth., 333 F.3d 611, 615 (5th Cir. 2003). Based on the allegations in the
Complaint, Plaintiff clearly was not a federal employee and the City of Dallas is not a federal
entity. Accordingly, Plaintiffs FSLMRA claim should be dismissed for failure to state a legally
cognizable claim.
Similarly, chapter 61 of the Texas Labor Code, otherwise known as the Payday Act,
“does not apply to the United States, this state, or a political subdivision of this state.” Tex. Lab.
CODE § 61.003 (emphasis added). The City of Dallas is a political subdivision of the state of
Texas. Plaintiffs allegations do not and cannot establish the applicability of the Payday Act.
Thus, Plaintiffs claim under the Payday Act should be dismissed. See City of Deer Park v.
Ibarra, No. 01-10-00490-CV, 2011 WL 3820798, at *8 (Tex. App.—Houston [1st Div.] Aug.
25, 2011) (affirming trial court’s dismissal of workers’ Payday Act claim against the city).
F. Leave to Amend
“As a general rule, a court should not dismiss a pro se complaint without affording the
plaintiff the opportunity to amend. Bazrowx v. Scott, 136 F.3d 1053, 1054 (5th Cir. 1998).
However, while “a pro se litigant should be offered an opportunity to amend his complaint
before it is dismissed,” the court is not required to grant leave to amend “if the plaintiff has
already pleaded his ‘best case.’” Brewster v. Dretke, 587 F.3d 764, 767-768 (5th Cir. 2009).

8

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 9 of 10 PagelD106

Here, Plaintiffs section 1983 equal protection, Title VII pay disparity, breach of contract,
FSLMRA, and Payday Act claims are fatally infirm for the reasons outlined here and cannot be
cured by amendment. Thus, granting leave to amend these claims would be futile and cause
needless delay.
However, based on Plaintiffs response to the motion to dismiss, it is not clear that he
cannot cure the deficiencies in his state and federal employment discrimination claims. Under
these circumstances and mainly because Plaintiff is pro se and has not previously amended his
complaint, he should be granted the opportunity to do so only as to those claims. Bazrowx, 136
F.3d at, 1054.

IV. CONCLUSION
For the foregoing reasons, Defendant’s Motion to Dismiss Plaintiff’s Original Petition
and Brief in Support, Doc. 7, should be GRANTED. Plaintiffs section 1983 equal protection,
Title VII pay disparity, breach of contract, FSLMRA, and Payday Act claims should be
DISMISSED WITH PREJUDICE. Plaintiffs federal and state race and national origin
employment discrimination claims should be DISMISSED WITHOUT PREJUDICE, and
Plaintiff should be granted a reasonable period following the acceptance of this Recommendation
to amend those claims to cure the deficiencies noted herein, if he can do so. If, however,
Plaintiff fails to. do so, his race and national origin employment discrimination claims should
likewise be DISMISSED WITH PREJUDICE.
SO RECOMMENDED on June 3, 2020.
/
\

RENEE HARRIS TOLIVER
UNKTED/STATES MAGISTRATE JUDGE
9

Case 3:19-cv-02656-G-BK Document 18 Filed 06/03/20

Page 10 of 10 PagelD 107

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
A copy of this report and recommendation will be served on all parties in the manner provided by
law. Any party who objects to any part of this report and recommendation must file specific
written objections within 14 days after being served with a copy. See 28 U.S.C. § 636(b)(1); FED.
R. Civ. P. 72(b). An objection must identify the finding or recommendation to which objection is
made, the basis for the objection, and the place in the magistrate judge’s report and
recommendation the disputed determination is found. An objection that merely incorporates by
reference or refers to the briefing before the magistrate judge is not specific. Failure to file specific
written objections will bar the aggrieved party from appealing the factual findings and legal
conclusions of the magistrate judge that are accepted or adopted by the district court, except upon
grounds of plain error. See Douglass v. United Sei'vices Automobile Ass’n, 79 F.3d 1415, 1417
(5th Cir. 1996), modified by statute on other grounds, 28 U.S.C. § 636(b)(1) (extending the time
to file objections to 14 days).

10

. Case: 21-10163
Document: 00515847178
Page: 1
Case 3:19-cv-02656-G-BK Document 35 Filed 05/04/21
a

&

sff-y

Date Filed: 05/04/2021
Page 1 of 3 PagelD 213

US

®ntteii States? Court of ^Ippeate
for tfje Jftftf) Circuit
Certified as a true copy and issued
M

as

United States Court of Appeals
Fifth Circuit

as the mandate on May 04, 2021
Attest:

FILED

No. 21-10163

W. CeujtA

April 12, 2021

Clerk, U.S. Court of Appeals , Fifth Circuit

Lyle W. Cayce
Clerk

Abel Belmonte

Plaintiff—Appellant,
versus
City of Dallas, Texas
Defendant—Appellee.

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-2656

Before Higginbotham, Smith, and Engelhardt, Circuit Judges.
Per Curiam:
This court must examine the basis of its jurisdiction, on its own
motion if necessary. Hill v. City ofSeven Points, 230 F.3d 167,169 (5th Cir.
2000). In this civil rights action, the plaintiff filed a notice of appeal from the
magistrate judge’s findings, conclusions and recommendations entered June
03, 2020 and February 9, 2021.
“Federal appellate courts have jurisdiction over appeals only from (1)
a final decision under 28 U.S.C. § 1291; (2) a decision that is deemed final
due to jurisprudential exception or that has been properly certified as final

•l/

Case: 21-10163
Document: 00515847178 Page: 2
Case 3:19-cv-02656-G-BK Document 35 Filed 05/04/21

Date Filed: 05/04/2021
Page 2 of 3 PagelD 214

No. 21-10163

pursuant to Fed. R. Civ. P. 54(b); and (3) interlocutory orders that fall
into specific classes, 28 U.S.C. § 1292(a), or that have been properly certified
for appeal by the district court, 28 U.S.C. § 1292(b). ” Askanase v. Lmngwellj
Incn 981 F.2d 807, 809-10 (5th Cir. 1993). The report and recommendation
of a magistrate judge is not a final order and it does not fall into any of the
other categories that would make it appealable. See United States v. Cooper,
135 F.3d 960, 961 (5th Cir. 1998). Moreover, although the district court
subsequently adopted the report and recommendation docketed June 3,
2020, the present notice of appeal is not effective for purposes of appealing
that judgment. Id. at 962 (“[T]he recommendation of a magistrate judge is
not a final decision and does not in any way dispose of a party’s claims.”).
Accordingly, the appeal is DISMISSED for want of jurisdiction.

2

Case: 21-10163
Document: 00515847184 Page: 1
Case 3:19-cv-02656-G-BK Document 35 Filed 05/04/21

Date Filed: 05/04/2021
Page 3 of 3 PagelD 215

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

May 04, 2021

Ms. Karen S. Mitchell
Northern District of Texas, Dallas
United States District Court
1100 Commerce Street
Earle Cabell Federal Building
Room 1452
Dallas, TX 75242
No. 21-10163

Belmonte v. City of Dallas, Texas
USDC No. 3:19-CV-2656

Dear Ms. Mitchell,
Enclosed is a copy of the judgment issued as the mandate.

Sincerely,
LYLE W. CAYCE, Clerk

By:
Melissa V.Mattingly,Deputy Clerk
504-310-7719
cc w/encl:
Mr. Abel Belmonte
Ms. Jennifer Carter Huggard

